            Management of AMEC Program Funds
            DOD officials did not manage $1.2 million of AMEC Program funds in
            the most efficient or effective manner. Inefficient management of funds
            occurred because the Office of the Principal Assistant Deputy Under
            Secretary of Defense (Environmental Security) did not provide sufficient
            guidance with the transfer of funds to the Air Force and the Navy. In
            addition, the Air Force and the Navy did not implement proper
            management controls over the expenditure of the funds transferred. As a
            result, the Government has no assurance it will receive expected
            products and services for the $1.2 million provided to support the
            AMEC Program and the plan to direct a contractor to subcontract with a
            specific subcontractor would have been improper if it had been
            implemented.


Office of the Principal Assistant Deputy Under Secretary of
Defense (Environmental Security) Transfer of Funds
     The Office of the Principal Assistant Deputy Under Secretary of Defense
     (Environmental Security), hereafter called the Environmental Security Office,
     did not perform proper management over $1.2 million of AMEC Program funds
     transferred to the Air Force and Navy. The Environmental Security Office did
     not specify what reports, products, and services they expected the Air Force to
     produce with the funds provided. The Environmental Security Office planned
     to direct AFCEE to direct a contractor to improperly subcontract a project for
     $70,000 with a Navy contractor. The Environmental Security Office provided
     the Naval Research Laboratory $150,000 in funds, that were due to expire in
     7 days, to complete an in-house project. Finally, the Environmental Security
     Office did not identify which projects the Navy was supposed to support for the
     AMEC Program.
     Transfer of Funds to the Air Force. The Environmental Security Office did
     not provide sufficient guidance when the office transferred $1 million by
     Military Interdepartmental Purchase Request (MIPR) to the Air Force to support
     the AMEC Program. The Environmental Security Office instructed the Air
     Force to add the $1 million to an existing AFCEE contract, F41624-95-D-8141,
     and provided the Air Force a list of proposed AMEC Program project titles.
     The Environmental Security Office did not provide any written guidance, other
     than the specific project titles, to the Air Force to state what products or reports
     were expected from the funds. The lack of guidance led to considerable
     confusion and some delay. For example, the Air Force originally only had the
     ability to provide status reports for contractor support by total hours and dollars
     spent. However, the Environmental Security Office was not satisfied with this
     reporting and issued a stop-work order on January 16, 1997, until an agreement
     with the Air Force could be worked out on the format and content of status
     reports. The Environmental Security Office rescinded the stop-work order on
     February 10, 1997, with the agreement that the Air Force would develop task
     assignments for each project and track costs by project as well as hours. This

                                          3
Management of AMEC Program Funds


     program delay could have been avoided had more detailed guidance or some
     type of memorandum of understanding been completed between the
     Environmental Security Office and the Air Force. The Environmental Security
     Office should develop and institute procedures for transfer of funds that
     delineates in a written signed agreement what is expected of all parties
     including: cost reporting, interim reports, and final products from the
     expenditure of the funds.
     Planned Direction to the AFCEE Contractor. The AMEC Program office
     within the Environmental Security Office, planned to direct AFCEE to
     improperly subcontract a project for $70,000 with a Navy contractor. The
     original AMEC Program plan was to fund two projects through the Naval
     Research Laboratory at an estimated cost of $200,000. However, in FY 1997,
     as projects were further defined, an additional $70,000 in requirements was
     identified for one of the two Naval Research Laboratory AMEC Program
     projects. The $70,000 of funds planned to support the additional requirements
     were two-year FY 1995 ESTCP funds due to expire at the end of FY 1996.
     Because the additional requirements constituted new work, the expired funds
     could not be used for the Navy requirements. To rectify the funding shortfall,
     the AMEC Program office planned to direct the AFCEE contractor, Waste
     Policy Institute, to subcontract with the Naval Research Laboratory’s
     contractor, Geo-Centers, Inc., to satisfy the additional $70,000 AMEC Program
     requirement. The AMEC Program office and AFCEE should not direct the
     AFCEE contractor to subcontract $70,000 with the Navy AMEC contractor.
     The use of expired funds in this manner is inappropriate.
     Transfer of Funds to the Navy. The Environmental Security Office did not
     provide sufficient guidance on how the funds transferred to the Navy were to be
     used to support the AMEC program. The Environmental Security Office
     directed the Navy to use $150,000 due to expire in 7 days to support an
     in-house project, Development of Monitoring Technologies, Methods, and
     Strategies for Hazardous Waste at Arctic Naval Facilities, Storage and Dump
     Sites. The Environmental Security Office directed that the remaining $50,000
     support a specific existing cost reimbursement research and development
     contract N00014-94-C-2056, but did not specify which program the $50,000
     would support.


AFCEE Implementation of the AMEC Program
     AFCEE contract management controls were not sufficient to ensure that the
     funds provided properly supported the AMEC Program. Management controls
     were insufficient because AFCEE did not confirm verbal orders to the
     contractor in writing as required by the Federal Acquisition Regulation.
     AFCEE did not complete a written agreement that delineated the roles and
     responsibilities of Air Force individuals responsible for tasking or providing the
     contractor with technical direction. AFCEE did not refine the original broad
     delivery order statement of work after projects had been more clearly defined.
     As a result, AFCEE’s ability to protect the Government’s interest in contractor
     performance on the AMEC Program was greatly diminished.

                                          4
                                        Management of AMEC Program Funds


Contractor Ordering Assignments. AFCEE did not have procedures to
confirm, in writing, verbal orders made by Air Force personnel to the
contractor supporting the AMEC Program. Federal Acquisition Regulation
part 16.505, “Ordering,” states “If appropriate, authorization for placing oral
orders may be included in the contract Schedule, provided, . . . that oral orders
are confirmed in writing. ” AFCEE wrote a broad statement of work for
contract F41624-95-D-8 14 1 delivery order 18 that required individual orders
necessary for the contractor to perform any work. Air Force personnel verbally
tasked the contractor for individual assignments under delivery order 18 without
confirming the order in writing for the contract file. The contract file for the
individual orders under delivery order 18 contained only the task order
assignment numbers and titles without a specific detailed scope of work. By not
requiring all contractor order assignments in writing, the Air Force is limited in
its ability to protect the Government against misunderstandings or inaction on
the part of the contractor. When all direction is provided verbally, the
Air Force must rely solely on the contractor’s understanding as to what is
deemed as proper support. If the contractor were later to be found lacking in
the level of effort or simply not performing at all, the Air Force would have no
way of protecting its interest. In the case of legal action, the Air Force would
not be able to produce any documentation, an agreed upon product signed by
both parties, or even an internal log supporting its position concerning the
contractor’s level of effort. AFCEE should enact procedures requiring all
contractor ordering assignments in writing, or at least confirmed in writing and
maintained in the official contract file.

Air Force Communication with the Contractor. AFCEE did not complete a
written agreement with the contractor detailing which Air Force officials would
be responsible for officially tasking or providing technical direction to the
contractor. Each Air Force project under the AMEC Program is managed by a
project officer. The project officers for the AMEC projects are located at
two locations, AFCEE and the Headquarters, Air Force Civil Engineer
Environment office. AFCEE did not document the respective roles and
responsibilities of those Air Force officials. The conditions may lead to
unauthorized officials tasking the contractor, or an unauthorized
employer-employee relationship with the contractor, which may lead to
commitments not authorized or necessary to achieve the objectives of the
AMEC Program. To help alleviate any confusion or potential for wrongdoing,
AFCEE should initiate a written agreement that states only the contracting
officer or the contracting officer’s representative may officially task the
contractor. In addition, the written agreement should stipulate those Air Force
personnel responsible for providing technical direction.

Statement of Work. AFCEE did not modify the delivery order used to
implement the AMEC Program after project scopes were further defined. At
the start of the program, AFCEE had only broad project titles to work with. In
response to a stop-work order issued by the Environmental Security Office,
AFCEE established task assignment numbers for each project. Each task
assignment number had its own specific subtaskings required to complete the
project. The task assignment numbers were officially added to the contract file
but retained the same statement of work from the original broad delivery order
statement of work. When we asked the AFCEE contractor whether the


                                    5
Management of AMEC Program Funds


     statement of work from the basic contract, delivery order, and the task
     assignment numbers provide sufficient guidance to allow them to proceed
     without direction from AFCEE, contractor personnel responded negatively.
     United States Code Title 41, “Public Contracts,” Chapter 4, “Procurement
     Procedures, ” Subsection 253j, “Task and Delivery Order Contracts, ” states that
     the statement of work shall include provisions clearly specifying all tasks to be
     performed or property to be delivered. Therefore, AFCEE should include a
     more detailed statement of work with the task assignment numbers in order to
     eliminate any perceptions of an employer-employee relationship with the
     contractor, increase contractor performance accountability, and to allow the
     contractor to perform services without relying on constant direction and
     clarification from AFCEE.


Naval Research Laboratory Implementation of the AMEC
Program
     The Naval Research Laboratory did not have adequate procedures to determine
     whether funds could be used before expiration or for refusing funds that contain
     guidance too vague to implement. The Naval Research Laboratory should not
     have accepted either of the two MIPR fund transfers from the Environmental
     Security Office to support the AMEC Program.

     Naval Research Laboratory In-House AMEC Project. On September 24,
     1996, the Naval Research Laboratory accepted a MIPR transfer of $150,000,
     which was due to expire in 7 days, to support an in-house project, Development
     of Monitoring Technologies, Methods, and Strategies for Hazardous Waste at
     Arctic Naval Facilities, Storage and Dump Sites. The funds provided to the
     Navy to support the in-house project were two-year FY 1995 ESTCP funds due
     to expire at the end of FY 1996. Funds to support in-house projects must be
     obligated and used before they expire. By accepting the MIPR, the Naval
     Research Laboratory agreed to complete the in-house project in 7 days. The
     Naval Research Laboratory was not able to expend all $150,000 and could not
     provide a product as expected. The Naval Research Laboratory was able to
     spend only about $7,200 of the $150,000 before the end of FY 1996. As a
     result, the AMEC Program forfeited the use of about $142,800. The Naval
     Research Laboratory should not have accepted a MIPR transfer of funds to
     complete a project that they could not reasonably expect to complete before the
     funds expired. The Naval Research Laboratory should institute procedures for
     reviewing all MIPRs received to determine if funds can be used before
     expiration.

     Vague MIPR Direction. The Naval Research Laboratory accepted a $50,000
     MIPR transfer of funds from the Environmental Security Office that was too
     vague to implement. Along with the MIPR, the Environmental Security Office
     provided the Navy with a list of four environmental research and development
     projects to support the ESTCP and AMEC Programs. The Environmental
     Security Office did not stipulate which of the four environmental research and
     development projects listed were to support the AMEC Program. The
     Environmental Security Office transferred funds in late September 1996, for

                                         6
                                           Management of AMEC Program Funds


    two of the four projects to be performed on Navy contract N00014-94-C-2056
    without distinguishing which project supported the AMEC Program. The Navy
    technical point of contact thought the funds for the two projects were to support
    the same project since both had an ESTCP funding source. The Navy technical
    point of contact discovered the mistake in January 1997, resulting in a project
    initiation delay of about 3 months. This research and development contract is a
    level-of-effort contract and, therefore, will produce no product or report at
    completion unless specified. Because the Environmental Security Office did not
    specify what, if any, product they required, no product will be produced by the
    contractor at completion of the task. The MIPR did not stipulate which project,
    task, or program the funds were to support. The Naval Research Laboratory
    should have refused the MIPR because the Environmental Security Office did
    not provide sufficient guidance to perform the necessary work. The Naval
    Research Laboratory should enact procedures for refusing all MIPRs that are
    received with guidance that is too vague to implement.


Conclusion
    As requested by the Principal Assistant Deputy Under Secretary of Defense
    (Environmental Security), this audit addressed the use of $1.2 million of DOD
    AMEC Program funds. The Environmental Security Office believed that
    sufficient guidance had been provided to the Air Force and Navy; however, the
    lack of initial written guidance to the Services resulted in confusion and delays.
    The Environmental Security Office issued a stop-work order to the Air Force
    because the Air Force and its contractor were not providing adequate fund
    expenditure information to the Environmental Security Office. The Navy did
    not understand which project was to be funded with the $50,000 transferred and
    as a result the start of the project was delayed about 4 months. Had timely
    written guidance been provided to the Services, these problems might have been
    avoided. After the initial phases of the AMEC Program, the Environmental
    Security Office began preparing a draft policy that would set forth the duties
    and responsibilities for AMEC personnel. The draft policy has not been
    finalized.
Management of AMEC Program Funds


Recommendations, Management Comments, and Audit
Response
     1. We recommend that the Principal Assistant Deputy Under Secretary of
     Defense (Environmental Security):
            a. Develop and implement procedures that establish a written
     memorandum of understanding with all entities that receive a transfer of
     funds. The memorandum of understanding should include responsibilities,
     how costs are to be reported, and what progress reports or final products
     are expected to result from the funds transferred.
     Management Comments. The Environmental Security Office concurred and
     stated that procedures have been developed and are in place delineating fiscal
     and status reporting, responsibilities, schedules, and deliverables for each
     project.
            b. Develop and implement review procedures for all funds
     transferred by military interdepartmental purchase request to determine
     whether the funds can be executed before expiration.
     Management Comments. The Environmental Security Office concurred and
     stated that review procedures are in place and a new program manager will
     track the transfer and expenditure of funds.

           c. Eliminate the plan to direct the Air Force Center for
     Environmental Excellence to subcontract $70,000 with the Navy contractor,
     Geo-Centers, Inc.
     Management Comments. The Environmental Security Office nonconcurred
     and stated that it was a proposal under consideration but was not a directive nor
     was it acted upon.

     Audit Response. We agree with the Environmental Security Office that there
     was only a plan to direct the Air Force Center for Environmental Excellence to
     subcontract with the Navy contractor. Even though the Environmental Security
     Office nonconcurred with the recommendation, its decision not to go through
     with the plan to subcontract met the intent of the recommendation and no
     additional comments are required.

     2. We recommend that the Commander, Air Force Center for
     Environmental Excellence, Office of Civil Engineer:
            a. Develop and implement procedures to document all verbal
     contractor order requests in writing and to retain a copy in the official
     contract file.




                                         8
                                        Management of AMEC Program Funds


       b. Develop and implement procedures to complete a written
agreement that states only the contracting officer or the contracting
officer’s representative may officially task the contractor. In addition, the
written agreement should stipulate those Air Force personnel responsible
for providing technical direction.
       c. Develop more detailed statements of work with the task
assignment numbers to eliminate any perceptions of a personal services
contract, increase contractor performance accountability and allow the
contractor to perform services without relying on direction from Air Force
personnel.
Management Comments. The Air Force concurred and stated that it will
reinforce appropriate procedures for issuing requests to contracting, appropriate
delineation of duties for the contracting officer and contracting officer’s
representative, and provide guidance on writing statements of work and task
assignments. In addition, the Air Force stated it will develop a written program
management plan and implement processes that require more detailed statement
of work or task assignment letters prior to initiating work under the contract.
3. We recommend that the Commander, Naval Research Laboratory,
Office of Naval Research:
       a. Develop and implement review procedures for all transfers of
funds by military interdepartmental purchase request to determine whether
the funds can be used before expiration.
       b. Develop and implement procedures for refusing all funds
transferred by military interdepartmental purchase request that contain
guidance too vague to implement.
Management Comments. The Navy concurred in principle, stating procedures
are in place to determine whether funds transferred by military
interdepartmental purchase request can be used before expiration and to obtain
clarification if guidance is vague; however, the procedures were not followed.
The Navy stated that it will reemphasize to its employees the need to follow
established procedures.




                                    9
Part II - Additional Information
Appendix A. Audit Process
Scope and Methodology
    Work Performed. We reviewed the overall policies, procedures, and
    documentation related to the ESTCP funds used for AMEC projects. In
    addition, we reviewed the specific 1996 MIPR funding documents totaling
    $1.2 million for the four FY 1997 proposed Air Force AMEC projects: “Basic
    Task; ‘: “Development of Means and Methods for Cleaning up Toxic Substances
    at Military Bases in the Arctic Region; ” “Development and Fabrication of a
    Unit for Reduction of Solid Radioactive and Nonradioactive Hazardous Waste
    Volume Using Catalytic Induction Melting; ” and “Clean Ships Technology; ” as
    well as the two Navy projects: “Development of a Vessel for the Collection and
    Comprehensive Treatment of Shipboard Waste; ” and “Development of
    Monitoring Technologies, Methods and Strategies for Hazardous Waste at
    Arctic Naval Facilities, Storage and Dumps.” We also reviewed contract
    documentation used to support the AMEC Program: Navy contract
    NOOO14-94-C-2056 funding modification PO003 1, awarded September 1996,
    and Air Force contract F41624-95-D-8141 delivery order 18, awarded
    September 1996.

    We interviewed DOD, Navy, Air Force, and contractor personnel involved with
    the ESTCP funds used for the AMEC projects to determine whether ESTCP
    funds used for the AMEC Program were used for their intended purpose, and
    whether contracting functions were properly performed.

    This report indicates management control weaknesses related to the transfer of
    funds by the Principal Assistant Deputy Under Secretary of Defense
    (Environmental Security) and expenditure of funds by AFCEE and the Naval
    Research Laboratory. However, we did not evaluate the management control
    program because the scope of the audit was limited to two contract actions and
    one in-house project.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from April through November 1997 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. The audit did not rely on
    computer-processed data or statistical sampling procedures.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD and Geo-Centers, Inc., Newton Centre, MA, and
    Waste Policy Institute, Gaithersburg, MD. Further details are available upon
    request.

    Prior Coverage. No audits on the Arctic Military Environmental Cooperation
    Program have been conducted.




                                       12
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
      Assistant Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Commander, Office of Naval Research
Commander, Naval Research Laboratory
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Assistant Secretary of the Air Force (Environment, Safety, and Occupational
   Health)
Commander, Air Force Material Command
Civil Engineer, Office of the Civil Engineer
   Chief, Environmental Division
   Commander, Air Force Center for Environmental Excellence
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          13
Appendix B. Report Distribution


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
  Committee on Government Reform and Oversight
House Committee on National Security




                                          14
Part III - Management Comments
Office of the Deputy Under Secretary of
Defense (Environmental Security) Comments

                    OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                      3000 DEFENSE PENTAGON
                                     WASHINGTON, DC 203013000




            MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING
                       OFFICE OF THE INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE

     Subject: Funds Used for the Arctic Military Environmental Cooperation Program,
              Project No. 7CK-5037, December 3,1997


            Thank you for the opportunity to comment on the subject IG Report

             A review of your “DraA of a Proposed Audit Report”, dated December 3,1997, has been
     completed and has identified several issues concerning the the report’s content. The report does
     not accurately describe the efficient and effective operation of the AMEC program.
     Additionally, the report’s scope is focused on only a small portion of the program, providing a
     flawed overall assessment. Further, the report contains inaccuracies. These issues are explained
     in detail in the attached document.

            1 request your careful review and consideration of the attached comments. Please extend
     my thanks to your staff for their time and effort spent in conducting this audit.




                                                  Deputy Under Secretary of Defense
                                                  (Environmental Security)




     Attachments as stated




                       Environmental Security              Defending Our Future




                                                     16
Office of the Deputy Under Secretary of Defense (Environmental Security)
                                                             Comments




                                                                        R. Edwn tWan98 1700



   Subj: Comments on “Funds Used for the Arctic Militarv Environmental
          Cooneration Program”. December 03.1997. No. 7CK-6037


   I.    SUMMARY:
         While specific comments regarding the report are covered below, it is
         important to summarize the overall ODUSD(ES) position with regards to the
         subject audit. ODUSD(ES) has taken the lessons learned from the initiation
         of this k&-ever multilateral environmental program and its operation over
         the past year, as well as experiences from the Cooperative Threat Reduction
         Program, and incorporated these lessons into the operation of the AMEC
         program. The audit report does not re5ect the efficient, effective AMEC
         program operation. The audit report concentrates on only a small portion of
         the program, providing a 5awed overall assessment, and further, contains
         inaccuracies.


   II.   GENERAL COMMENTS.

         A.    This audit was initiated at the request of the PADUSD(ES) to
               review expenditure of funds and management practices, in an effort to
               improve on the process. In other words, ODUSD(ES) identified the
               problem and requested assistance. PADUSD(ES) is being criticized for
               asking for help.

         B.    At the time of the audit, less than $200K of the total $lM sent to
               AFCEE and on to WPI had been spent and approximately $150K had
               expired at NBL. At the same time that PADUSD(ES) requested this
               audit, he also directed additional controls be put in place to ensure the
               appropriate expenditure of funds. The draft audit report states that
               the “Government has no assurance it will receive expected products
               and services for the $1.2 million...“, yet the amount in question is only
               $350K. This generalization is inappropriate and casts a shadow of
               doubt on the entire AMEC program management structure - which
               was sound at the time and continues to improve.

         C.    The audit represents a snap shot of a large, complex, evolving
               trilateral program. The program has been nationally and
               internationally recognized for its importance and sound program
               management. The audit “snap shot” presents a distorted view which
               fails to recognize the sound management practices in place and casts
               doubts on the entire program.




                                            17
               gifI,9ft”,“e Deputy Under Secretary of Defense (Environmental Security)




Final Report
 Reference

                                                                                          R Edmn P7Jon98 1700



                            D.   Significant changes continue to be effected to improve program
                                 management and expenditure and tracking of program funds.
                                 1.     A program management plan has been developed for the
                                        execution of both the National and Trilateral AMEC Program.
                                 2.     The program management and oversight is being consolidated
                                         under one service, the Navy, with CNO (N45) acting as the
                                        executive agent.
                                         a)    CNO (N45) has been designated by the DEPSECDEF as
                                               the Executive Agent and Principal for AMEC.
                                        b)     Naval Facilities Engineering Command (NAVFAC) has
                                               been designated as the project management facility.
                                        c)     A shift is being made to put Navy Project Officers over all
                                               projects.

                       III. EXECUTIVE SUMMARY:
Revised,                    A.   Second Paragraph:
page i                           .    ‘Total program support of $1.2 million came from FY 1995.. . . ”
                                      This sentence should be changed to read “Total DOD program
                                      support... .“. Additional funds were provided by EPA and DOE.
                            B.   Summary of Recommendations, First Paragraph:
                                 .    Do not concur with summary regarding PADUSD(ES). The
                                      funds transfer contained guidance appropriate for the initial
                                      stage of the projects and the program. Additional guidance
                                      should not have been necessary at that time and was provided
                                      in a timely manner as it became appropriate. The comment
                                      regarding the direction to AFCEE to have their contractor
                                      subcontract to the Navy contractor should be eliminated. Such
                                      direction was never given. This fact is explained in more detail
                                      below in the findings section.
                       JV. AUDIT BACKGROUND:
                            A.   Second Section on the ESTCP Funds:
Revised,                         .     The FY1995 DOD appropriation for ESTCP was approximately
page 2                                 $43 million, not $18 million as stated in the audit report. The
                                       $18 million was money added to the original ESTCP request to
                                       support the Fuel cell program.
                            B.   Third Section on Redirected Financial Support:
                                 .     The $3.8 million transferred to AFCEE and NRL was not all for
                                       the AMEC program support. The wording of this paragraph is
                                       ambiguous and should be clarified such that there is no
                                       confusion. Only $1.2 million went towards AMEC support.




                                                              18
Office of the Deputy Under Secretary of Defense (Environmental Security)
                                                             Comments




                                                                       R. Edson s7Jan98 1700


   V.   FINDINGS:

        A.   Transfer of Funds to the Air Force.

             The Environmental Security office did not provide sufficient guidance
             when the office transferred $1 million by Military Intero!epartmental
             Purchase Request (MIPR) to the Air Force to support the ALEC
             program. The Environmental Security office instructed the Air Force to
             add the $1 million to an existing AFCEE contract, F41624-95-D-8141,
             and provided the Air Force a list of project titles. The Environmental
             Security office did rwt provide any written guidance, other that the
             specific project titles, to the Air Force to state what products OF reports
             were expected from the funds. The lack of guidance led to considerable
             confusion and some delay. For example, the Air Force originally only
             had the ability to provide status reports for contractor support by total
             hours and o!ollars spent. However, the Environmental Security office
             was not satisfied with this reporting and issued a Stop- Work-Order on
             January, 16 1997, until an agreement could be worked out on the
             format and content of status reports...

             Do not concur.

             SufScient guidance was provided. While the initial tasking was
             delivered in the form of project titles, these projects were just started
             and the AMRC program later developed. Explicit, detailed project
             management plans were drafted during several unilateral US-only
             meetings held in October 1996 and January 1997 and further in
             trilateral technical experts meetings in November 1996 and February
             1997. Further, the project officers and the Air Force were all part of
             this project definition process. These plans contain listings of specific
             tasks, deliverables, timelines and responsibilities. Extensive meetings
             (approximately 6, including several all day program reviews) were held
             to re6ne the written guidance, among both the technical experts and at
             higher levels with the PADUSD(ES). These meetings offered detailed
             verbal guidance and ample opportunity for the Air Force to request
             further clarification on any points of confusion. ODUSD(ES) expected
             normally accepted standards and procedures for program
             management, a role the Air Force assumed, and should have
             accomplished without additional speciiic guidance required. Even
             when speci& guidance was provided, as in the funds transfer memo
             and the original MIPR, this was not acted upon by the Air
             Force/AFCEE in their Delivery Order for their prime contractor, Waste
             Policy Institute(WP1).


                                                                                           3




                                           19
               CH~I&;he Deputy Under Secretary of Defense (Environmental Security)




Final Report
 Reference

                                                                                        R. Edson 47Jun98 1730




                          B.    Improper Direction to the AFCEE Contractor.

                                he AMEC Program ofice within the Environmental Security office,
                                phnned to improperly direct AFCEE to subcontract a project for
                                $70,000 with a Navy contractor...

                                Do not concur.
Revised, see                    The title for this section is misleading and the content of the section
page 4                          false. No direction was ever given to AFCEE to direct WPI to
                                subcontract to a Navy contractor as is suggested by the title. The
                                appropriateness and legality of such a subcontract were being
                                investigated at the program manager level to determine whether or
                                not it was worth the time to have such an action more rigorously
                                reviewed. No determination had been made as to either the legality or
                                appropriateness of such a subcontract, and certainly no order had been
                                issued to AFCEE to pursue such an action. Since the initial discussion
                                on this issue, it has been determined that WPI can accomplish all
                                necessary work to cover the funding level change and that no
                                subcontract, to anyone, is necessary. This determination was made
                                based on sound management practices, long before the audit findings
                                were released.

                                Program officers are not legal or contracts experts. That is the function
                                of general counsels and contracting officers. Even if such a direction as
                                noted in the report were given, it still would have been reviewed by the
                                experts. If the action were still carried out a&r the review, it would
                                not result in condemnation of the ODUSDQX) program manager, but
                                rather the general counsel and the contracting officer for not advising
                                the program manager about the inappropriateness of the action.
                                Contracting is a series of checks and balances. No program manager
                                has the power to force another government agency (e.g., AFCEE) to do
                                something improper or inappropriate.

                                This whole section and recommendation should be removed from the
                                report.

                           C.   Transfer of Funds to the Navy.

                                l%z Environmental Security office did not provide sufficient guidance
                                on how the funds transfmed to the Navy were to be used to support the
                                AMEC R-ogram. The Environmental Security office directed the Navy
                                use $150,00 due to expire in seven days to support an in-houseproject,


                                                                                                            4




                                                             20
Office of the Deputy Under Secretary of Defense (Environmental Security)
                                                             Comments




                                                                     R. Edson 27Jon98 1700


            Development of Monitoring Technologies, Methods. and Strategies for
            Hazardous Waste at Arctic Military Facilities, Storage and Dump Sites.
            The Environmental Security office directed that the remaining $50,000
            support a specific existing cost reimbursement research and
            development contract NOOO14-94-C-2056, but did not specify which
            program the $50,000 would support.

            Do not concur.

            Sufficient guidance was delivered. While the initial tasking was
            delivered in the form of project titles, these projects had just been
            initiated and explicit, detailed project management plans were
            developed. Explicit, detailed project management plans were drafted
            during several US-only meetings held in October 1996 and January
            1997 and further in trilateral technical experts meetings in November
            1996 and February 1997. Further, the project officers were all part of
            this project definition process. These plans contain listings of specific
            tasks, deliverables, timelines and responsibilities. Extensive meetings
            were held to refine the written guidance, among both the technical
            experts and at higher levels with the PADUSD@S). These meetings
            offered in depth verbal guidance and ample opportunity for the Navy
            to request further clarification on any points of confusion. Further, the
            Navy Research Laboratory provided assurances that they would be
            able to obligate the funds prior to their expiration. In their response,
            the Navy acknowledges their responsibility for this action.

   V I . RECOMENDATIONS:
       A.   Develop and implement procedures that establish a written
            memorandum of understanding with all entities that receive a transfer
            of funds. The memorandum of unakrstanding should include
            responsibilities, how costs are to be reported, and what progress reports
            or final products are expected to result from the funds transferred.

            Concur with comments.

            This has always been the goal of the AMEC program, and the following
            actions supports this.
            1. The AMEC program management team developed project plans
                denoting schedules and deliverables for each project.
            2. The AhIEC program management team formalized monthly fiscal
                reporting procedures.




                                         21
               Office of the Deputy Under Secretary of Defense (Environmental Security)
               Comments



Final Report
 Reference

                                                                                             R. Edmn 27Jon98 I700




                                    3. The AhIEC program management team developed expenditure
                                       plans and forwarded them to the Air Force as guidance for
                                       executing the program.
                                    4. The AMEC program management team developed detailed job
                                       descriptions to clearly delineate responsibilities among the program
                                       participants.
                                 These actions were in progress at the end of 1996, prior to the initiation of
                                 the audit.

                            B.      Develop and implement review procedures for all finds transferred by
                                    military interdepartmental purchase request to determine whether the
                                    funds can be executed before -iration.

                                    Concur with comments.

                                    Such review procedures are already in place through the development
                                    of the project timelines and a formal program management plan.
                                    Additionally, there is now in place a professional program manager
                                    whose role includes the tracking of funds expenditure and transfer.


                            c.      Eliminate the plan to direct the Air Force Center for Environmental
                                    Excellence to subcontract $70,000 with the Navy contractor, Geo-
                                    Centers, Inc.

                                    Do not concur.

See page 8                          As noted under the findings sections, this was a proposal under
                                    consideration, which was never acted upon, not a directive. This
                                    recommendation should be deleted.




                                                                                                               6




                                                                 22
Department of the Air Force Comments


                                      DEPARTMENT OF THE AIR FORCE
                                                   WASHINGTON, DC




  OMw of the Asshtanl Secratary                                                            2 February 1998




         MEiMOR4NDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING OFFICE OF
                          THE INSPECXOR GENERAL
                         DEPARTMENT OF DEFENSE
          FROM: Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations, and
                Environment)
          SUBJECT:      DoDIC Draft Report, Funds used for Arctic Military Environmental Cooperation
                        Program (Project No. 7CK-5037)
                  This is in reply to your memorandum requesting the Assistant Secretary of the Air Force
          (Fiiancial Management and Comptroller) to provide Air Force comments on subject report.
                  Three recommendations with appropriate management comments are as follows:
                  Recommendation 2.a: The Commander, Air Force Center for Environmental Excellence
          develop and implement procedures to document all verbal contractor order requests in writing
          and to retain a copy in the official contract file.
                  Management Comments for Recommendation 2.a. Concur: Any verbal orders made by
          Air Force personnel to the contractor shall be confirmed in writing and a copy shall be retained in
          the official contract file. The Air Force Center for Environmental Excellence (AFCEE)
          procedures authorize only written task orders/delivery orders, TOslDOs, under the AFCEE
          contracts. The Commander, AFCEE will issue a letter reminding all personnel of the appropriate
          procedures for issuing requests to contracting. Estimated Completion Date: 27 Feb 98.
                  Recommendation 2.b: The Commander, Air Force Center for Environmental Excellence
          develop and implement procedures to complete a written agreement that states only the
          contracting oficer or the contracting officer’s representative may officially task the contractor. In
          addition, the written agreement should stipulate those Air Force Personnel responsible for
          providing technical direction.
                  Management Comments for Recommendation 2.b. Concur: Guidance delineating the
          authority of the contracting Officer and .Contracting Officer’s Representative (COR) is addressed
          in general terms, in the FAR. There is a standard Appointment of Contracting Officer’s
          Representative letter issued by the Contracting Officer to the COR for all TOs/DOs issued by the
          Air Force Center for Environmental Excellence(AFCEE). This letter designates the COR and
          specifies the duties and responsibilities of the COR. The letter authorizes the COR to act as the
          technical point of contact for the effort. The Commander, AFCEE will issue a letter to all
          AFCEE personnel reinforcing the importance of appropriate adherence to these procedures.
          Estimated Completion Date: 27 Feb 98.




                                                           23
Department of the Air Force Comments




               Recommendation 2.~: The Commander, Air Force Center for Environmental Excellence
       develop more detailed statements of work with the task assignment numbers to eliminate any
       perceptions of a persona! services contract, increase contractor performance accountability and to
       allow the contractor to perform services without relying on direction form Air Force personnel.
               Management Comments for Recommendation 2.~. Concur: Procedures are in place that
       give guidance on writing statements of work and task assignments. This guidance is found in the
       Air Force Center for Environmental Excellence (AFCEE) Environmental Restoration
       Contracting Procedures Manual, the Team Chiefs Project Management Manual, and the COR
       training program. To reinforce this guidance, AFCEE will develop a written program
       management plan. Instead of the CORs and other personnel placing what appear to be verbal
       taskings, contracting will process written task assignment letters as the projects become more
       defined. AFCEE will detail the procedures for processing task assignment letters in the new
       plan. AFCEE will have a draft program management plan by February 1998. AFCEE will
       implement processes that require more detailed SOW/task assignment letters prior to initiating
       work under the contract. Additionally, AFCEE will add emphasis on the appearance of personal
       services during our monthly COR training sessions. Estimated Completion Date: 27 Feb 98.
              The management comments claim no dollar savings.
              The SAF/MI point of contact is Co1 Rick Drawbaugh, 697-0997, room 5C866, FAX
       614-2884.



                                                              &!%%Lz/
                                                              Acting Assistant Secretary
                                                              (Manpower, Reserve Affairs,
                                                               Installations & Envirormant)




                                                      24
Department of the Navy Comments




     HCMCIRANDUM FOR ASSIST&NT INSPECTOR GENZRAL FOR AUDXTING,
                       DEPARTHENri OF DEFENSE

     Subj:   DRAFT AUDIT REPORT ON FUNDS USED FOR THE ARCTIC MILITARY
             ~NVfRONWWTRL COOPERATION PROGRAM (PROJXT NO. 7CK-5037)
     Rtf:    (t) DODIG Draft Audit   Report   of 3 DPC 97

     0x1:    (1) Department of the Navy Response to DODIG.Drtft Audit
                 Report of 3 Dtc 97
            The Dtptrtmtnt of tha Navy (DON) has reviewed the subject
     drtfr audit report, forwarded by reftrtncc (a], and assessed the
     findings tnd racommendrtlonr  contained therein.
           PetaLled commants are provided in anclosure (1). The DON
     &grees thee the Naval Rcrtarch Ltborrzory (NRL) did not handle
     the two trtnsftrt of funds by military interdaptrtmsntal purchase
     request (HIP41 appropriately. The draft report recommends that
     NRL develop and implement procedures for't:zssftr?r of funds by
     MIPR. NRL already has established procedures to determint
     whether funds can be utmd before expiration, as well 8s
     practdurtt to lollou when clttr guidance Is not received on MIPR
     fund trAllSfArS. Thor. procedazes are contained in NRL
     Enatruction 7OOU.lA, Fint.rlcitl Htnrgelacnt Policits and Procadurcs
     Mtnual, datad 16 March 1995.     In the ctst of these two MIPRs,
     tham procaduras were not fallowed.
          ?t&opriate ccttbn will be taken to rtemphasizt the need to
     follow established proeadurtt.   Point of contact on this subject
     is Larry Draverman, FMO-311, who can be reached at 202 685-6745.




     copy to:
     A3N IRDiA)
                 1
     NAVINSGEN IO2
     CIR (OWR OOW
     CO, NRL




                                     25
Department of the Navy Comments




                           Deputwnt of the Navy Baspensc
                                                to
                         AX@(A) Dt&t #aport of D0oomkr 3, 1997
                                             Qn


                     Nnda Urod far tb0 Jkrctic tilitary        &vironman+r3
                       CooparatiOa hogam (Pcojrct-Wo.          fC]r-5037)

         PART 1   - AUDIT RESULTS
          au0 7, lfwal Ro8ruob Ldoratoty             Zmpl-t0UOo      Of the luLpC
         ;mnl

              "The Naval Rcstrrch Laboratory did not have adequate
         procedures to determine whether funds can be ustd before
         axplration OI for refusing funds thee contain gufdance too vague
         to implement."

              DOD R0~omre:   The kual Research Laboratory currently has
         procedurrs to determine whether funds can be used before
         wpirstion, as ~011 as procedures to fo!low when clear guidance
         Is not received on military interdspartmenral purchase request
          IHSPR) fund tranrfezs. b!owever, tSe p r o c e d u r e s ware n o t
         appropriately    followed.



               “The Naval Research Laboratory should not hzva accepted
         aithtr of the tvo NIPR fund trrnsfcs from the Environmental
         Swrurity Office to support the PJEC Program.’
               DOD ksponso: Thm Ncvsl Research Laboratory should not have
         rccaptcd the MIPR for 5150,000 to complete a prolect Ln 7 days.
         The project could not be completed prior to the funds expiration
         tit*. It was appropriate, however, for the Naval Restarch
         Laboratory to accept thm MIPR for 550,000. The Naval Research
         Laboratory program manegtr should have obtained clarification
         from the customer (Environmcnt~l Security Office) as to which of
         the fcur environmental rtaoazct! and development projacts to
         support.




                                           26
                                                                  Department of the Navy Comments




               .
           .
Page   6       PAge 8.   vagum   IPPR    LIirrctlcn
                        “ T h e NAVAL Rcsoarch LaborAtory rcctptcd t $ 5 0 , 0 0 0 ~IPR
               transfer of funds f r o m thm E n v i r o n m e n t a l S e c u r i t y o f f l c t that wss
               too vague to Implement . . ..Ths HIPR did not atipulota which
               p r o j e c t , trsk, 0: progrsm the funds Uert to support. The NAvAl
               Rcccarch Lsboratory should have refused the MIPR bccausc the
               E n v i r o n m e n t a l S e c u r i t y office did not provide sufficient gufdancc
               to perform the ntcassrry vork.”

                       DOJT k8p08.0:  The MIPR did not contain sufficient guidance
               to p e r f o r m the necessary uotk. The NAVU Restarch Laboratory
               program mAnagtr should have obtained clarification from the
               customer ac to which of the four environmental rctc&rch A n d
               develapmcnt projects to support before accepting the MIPR.
               *rc-tiera* for corxoativo Action:

                       “3.   wm rme ommutd that thm Cc-&r (Commanding O f f i c e r ) .
               Naval RmsruCh        Lmborrtorg,      office of Ilava aasmarch:

                    a. Oardop ad ~hmust rrvimw procrdurus fot a11
               trmamfu of funda bp rilituy IntmrdepuWntrl purchwr rmqueat
               to datrsaine uhmthor tha funds can be wad b&ore urpirAtion.”

                       ncp( accponcc: Concur in prlnciplc. While the N a v a l
               Rcscsrch      Laboratory AlreAdy hAs procrdorcc in place to determine
               whether funds transferred by UIPR can bt used before expiration,
               the procedures were not followtd.       The Naval Research Laboratory
               w i l l rrcmphrsizc uith its cmployoes the n e e d t o f o l l o w
               cstbblirhed procedures.

                         "b. Davelap md implammat procedures for rmfUeLng .rll
               funda trmrZ*rrd by ailituy iatetdmpu+unt81 purahr- r-q-St
               thrt contain quidmm too T&gum to iBp1muJt. ”
                       nom Rmuoncr : Concur in principle. It would not bc
               c o n d u c i v e f o r thm Naval R e s e a r c h LAboratory to rcfUAc all f u n d s
               tranaferrAd by MIPR that contain vsgut g u i d a n c e . However, If the
               guidAnce provided is not rufftcient, the Naval R e s e a r c h
               Labor&tory p r o g r a m mrnbger should obtain clarification from the
               customer. The Naval Restarch Laboratory has procedures in place
               t o handlt sUch a n octurrcnce: i n t h i s lnftAnoe, t h t procedurts
               vere not followed by rcsponsiblt ptrsonnel. Naval Roatarch
               LAbOrAtOry management vi11 retmphasirt tht need t.0 folltw
               established procedures.




                                                      27
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.
Paul J. Granetto
Joseph P. Doyle
Deborah L. Culp
Michael J. Tully
Mark A. Pricco
Gregory P. Guest
Michael J. Guagliano
